<html>
<title> - PIERCING BURMA'S VEIL OF SECRECY: THE TRUTH BEHIND THE SHAM ELECTION AND THE DIFFICULT ROAD AHEAD</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
              PIERCING BURMA'S VEIL OF SECRECY: THE TRUTH
         BEHIND THE SHAM ELECTION AND THE DIFFICULT ROAD AHEAD

=======================================================================


         Minus 20 pts for each extra line of title deg.HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             June 22, 2011

                               __________

                           Serial No. 112-50

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
67-050                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1275627d52716761667a777e623c717d7f3c">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                 DONALD A. MANZULLO, Illinois, Chairman
RON PAUL, Texas                      ENI F.H. FALEOMAVAEGA, American 
BILL JOHNSON, Ohio                       Samoa
DAN BURTON, Indiana                  FREDERICA WILSON, Florida
EDWARD R. ROYCE, California          GARY L. ACKERMAN, New York
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MIKE KELLY, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          DENNIS CARDOZA, California


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Aung Din, executive director and co-founder, U.S. Campaign 
  for Burma......................................................     7
Chris Beyrer, M.D., director, Johns Hopkins Center for Public 
  Health and Human Rights........................................    25

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald A. Manzullo, a Representative in Congress 
  from the State of Illinois, and chairman, Subcommittee on Asia 
  and the Pacific: Prepared statement............................     3
Mr. Aung Din: Prepared statement.................................     9
Ms. Aung San Suu Kyi, General Secretary, National League for 
  Democracy, Rangoon, Burma:
  Prerecorded video message......................................    20
  Transcript of video message....................................    23
Chris Beyrer, M.D.: Prepared statement...........................    28

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
Mr. Aung Din: Material submitted for the record..................    50
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Article submitted for the record..........    55


 PIERCING BURMA'S VEIL OF SECRECY: THE TRUTH BEHIND THE SHAM ELECTION 
                      AND THE DIFFICULT ROAD AHEAD

                              ----------                              


                        WEDNESDAY, JUNE 22, 2011

                  House of Representatives,
              Subcommittee on Asia and the Pacific,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 12:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Donald A. 
Manzullo (chairman of the subcommittee) presiding.
    Mr. Manzullo. The Subcommittee on Asia and the Pacific will 
now come to order. I am sorry I am late. We had a pretty tight 
vote on the floor involving patent reform.
    I recognize myself for a brief opening statement. On 
November 7th of 2010, the military junta that ruled the country 
of Burma held an election that was universally labeled as a 
sham due to widespread irregularity and lack of participation 
by opposition parties. This exercise was nothing more than a 
well-choreographed maneuver by the ruling elites to transform 
themselves into a more internationally acceptable civilian 
dictatorship.
    Despite this attempt at political gymnastics, the 
repression in Burma continues and thousands of political 
prisoners remain locked in jail. The only ray of hope to emerge 
from this engineered process was the release of Daw Aung San 
Suu Kyi, daughter of Burma's revolutionary hero Aung Sun, and 
Nobel Peace Prize winner. But even this concession can be 
revoked at a moment's notice by the regime.
    Today we have the extraordinary opportunity to hear 
directly from the woman at the center of the decades-long 
struggle to bring freedom to her beloved homeland. This is the 
first time she has addressed the U.S. Congress in an official 
capacity, and I am extremely honored to be able to present it 
at this hearing.
    I cannot disclose how we received this video, and I would 
instruct the press not to ask me that question if they are so 
inclined. We are certainly delighted to have this unprecedented 
opportunity.
    The purpose of today's hearing is to peer behind Burma's 
veil of secrecy to fully comprehend the changes, if any, that 
are going on in that country. Since the election, we have 
witnessed a distinct point of view emerging from some Burma 
experts arguing that, no matter how fraudulent, the elections 
represent an important shift in domestic Burmese politics.
    As the argument goes, this shift might lead to real changes 
in the future, even if nothing significant occurs immediately. 
Furthermore, the existing opposition party, the National League 
of Democracy, is incapable of grasping this opportunity because 
the group and its leader, Ms. Suu Kyi, have an all or nothing 
approach. This is what is characterized as the pragmatic 
engagement theory.
    Since the Obama administration began its policy of 
pragmatic engagement in 2009, U.S. relations with Burma have 
not changed. Let us not forget that there are still 2,200 
political prisoners languishing in Burmese gulags, including 
peaceful monks and citizens that took part in the Saffron 
Revolution 4 years ago.
    The Burmese Government, as an effort of goodwill prior to a 
visit by U.S. officials in May, announced a despicably 
disappointing 1-year blanket reduction of jail sentences for 
all criminals, but it is not clear whether this includes 
political prisoners. The recent news of clashes in Burma's 
Kachin province between government troops and ethnic 
minorities, which has been the heaviest fighting in 17 years, 
adds further evidence to the argument that the situation in 
Burma has not changed.
    If proponents of pragmatic engagement are correct, then 
Burmese leaders should recognize this unprecedented opportunity 
being offered by the Obama administration and seek to improve 
relations with the U.S. by demonstrating tangible change. 
Unfortunately, this is not the case. The State Department's 
visit to Burma in May is further proof that change in Burma is 
extremely difficult to achieve.
    At a time when it seems Western influence is dwindling, 
Burma is actively engaging with its neighboring countries, 
constructing gas pipelines to Thailand and China, and accepting 
investments from China, its largest trading partner. Burma is a 
country that spends 1.8 percent of its GDP on health care, the 
second lowest in the world, while it spends 40 percent of its 
GDP on the military.
    As the lead Republican sponsor of legislation to award Ms. 
Suu Kyi the Congressional Gold Medal in 2008, it is my sincere 
hope that we will have the opportunity to present her with this 
award in person. Ms. Suu Kyi and her countrymen have lived 
under the yoke of oppression for far too long. It is time that 
free nations stand together to help Burma finally realize the 
same freedoms that we all enjoy.
    I now recognize Ranking Member Faleomavaega for his opening 
statement.
    [The prepared statement of Mr. Manzullo follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Faleomavaega. Thank you, Mr. Chairman, for calling this 
hearing. I think it is not only timely, but very important, and 
is part of the responsibilities of our subcommittee.
    It is very unfortunate that no one from the administration 
is here to testify concerning the situation in Myanmar. I know 
that at the initiation taken by the Obama administration, 
supposedly to carry on some kind of an engagement process with 
Myanmar, but, unfortunately, this has not taken place. 
Secretary Campbell and Secretary Joseph Yun have both visited 
Myanmar, but apparently with no results. But, still, it would 
have been nice if someone from the administration should have 
been here to tell us exactly what the latest development in 
this dialogue or this process.
    I do want to welcome today's testimony, Mr. Din and Dr. 
Beyrer and especially Aung San Suu Kyi, Nobel Peace Prize 
Laureate and Myanmar's pro-democracy leader. In 2008, she was 
also the recipient of the Congressional Medal of Honor, the 
highest civilian award in the United States.
    Aung San Suu Kyi was born on Myanmar. Her father, General 
Aung Sun, was the national leader of Myanmar until he was 
assassinated in 1947, when Aung San Suu Kyi was only 2 years 
old. Her mother was Myanmar's Ambassador to India.
    Raised in Myanmar, India, and the United Kingdom, Aung San 
Suu Kyi returned to Myanmar in 1988 and joined the National 
League for Democracy, or the NLD. She became the General 
Secretary and used her platform on the military regime to hold 
free and fair elections.
    In November last year, Aung San Suu Kyi was finally 
released, but, despite her efforts and sacrifices, Myanmar's 
military regime has not held an election that has been 
considered fair or free. In November last year, the State Peace 
and Development Council held the first election since 1990. And 
the results, which gave the military party a super majority in 
all houses of Parliament, were marred in controversy.
    While many nations, including the United States, continued 
to impose sanctions on Myanmar's military leaders in an effort 
to bring about democracy reforms, apparently the strategy is 
not working. I believe this is, in part, because we do have a 
double standard when it comes to sanctions. When it is 
convenient for us, we apply section 508 sanctions law against 
Thailand, Myanmar, Fiji, for example; but in 1999, when General 
Pervez Musharraf overthrew the democratically elected 
government of then Prime Minister Sharif, the U.S. waived 
section 508 sanction law, despite the fact that for nearly 10 
years, General Musharraf never made good on his promise to 
resign his military commission and hold free, fair, and 
transparent elections in Pakistan.
    From my perspective, Mr. Chairman, I believe we should find 
new ways to approach Myanmar, including high-level engagement 
with the new regime. And I hope today's testimony will help us 
advance the relations between our people and the people in the 
Government of Myanmar.
    I do ask unanimous consent, Mr. Chairman, that--part of the 
article that I have here was written by Professor Michael Aung-
Thwin, who is with the Political Science Department of the 
University of Hawai'i, in February. That was written February 
of this year, interesting observations in terms of the 
elections that took place in November least year.
    Unfortunately, too, even CRF was not comprehensive enough. 
What British colonial rule was like in Myanmar, if it was as 
brutal as the French colonial rule over Vietnam, Cambodia, and 
Laos, I would be very interested to know more about it.
    Myanmar was in a state of civil war for decades. The seven 
city states constantly were fighting amongst themselves. And it 
seems that the only organization that was finally trying to put 
some sense of order in Myanmar, it was the military. But I do 
look forward to hearing from our witnesses and especially from 
Ms. San Suu Kyi.
    Thank you, Mr. Chairman.
    Mr. Manzullo. The document will be admitted into the record 
without objection.
    Congressman Cardoza, do you have an opening statement?
    Mr. Cardoza. Thank you, Mr. Chairman. I would like to thank 
both my friends, Chairman Manzullo and my friend Ranking Member 
Faleomavaega, for organizing today's hearing.
    Burma held its first election in 20 years last November. 
This sham of an election was rightly condemned around the 
world. Looking at the long history of brutal oppression in 
Burma, the road ahead for the citizens who are suffering does 
not seem to hold a lot of promise.
    But I believe that the Arab spring of this year is a 
reminder that we should never discount about how quickly the 
spark of freedom can turn into a wildfire. The uprisings across 
the Middle East are serving as a reminder to dictators around 
the world that tyranny will not be tolerated.
    The people of Burma do not need to look to the Middle East, 
however, to see what the pursuit of freedom looks like. 
Instead, they need only look at the work of leaders like Nobel 
Laureate Aung San Suu Kyi or Aung Din, who both represent the 
true spirit of democracy in their country.
    I am looking forward to hearing from all of our 
distinguished witnesses today. And I thank them for joining us. 
And I yield back.
    Thank you, Mr. Chairman.
    Mr. Manzullo. Without objection, all witnesses' statements 
will be entered into the record.
    Our first witness today is Aung Din, executive director and 
co-founder of the U.S. Campaign for Burma. He served over 4 
years behind bars as a political prisoner in Burma after 
organizing the country's nationwide pro-democracy uprising in 
1988 as vice chair of the All Burma Federation of Student 
Unions, the largest national student organization in Burma and 
outlawed by the regime.
    He also served as vice chair of Burma's Youth Liberation 
Front and Cabinet Secretary of the Parallel Government founded 
by Prime Minister U Nu during the peak of the 1988 pro-
democracy uprising in September.
    Amnesty International adopted him as a prisoner of 
conscience in 1989, as chapters worldwide campaigned for his 
release. He is also country representative of Thai-Burma 
border-based ``Assistance Association for Political Prisoners--
Burma.''
    He has been quoted in hundreds of articles. He is an 
authority on the subject who knows more than anyone about being 
a prisoner for the purpose of freedom.
    Mr. Aung Din, we look forward to your testimony.

 STATEMENT OF MR. AUNG DIN, EXECUTIVE DIRECTOR AND CO-FOUNDER, 
                    U.S. CAMPAIGN FOR BURMA

    Mr. Din. Mr. Chairman, Ranking Member Faleomavaega, and 
Congressman Cardoza, thank you very much for holding this 
hearing today.
    Mr. Manzullo. Could you bring that microphone real close? 
You have a very soft voice.
    Mr. Din. Thank you very much for holding this hearing 
today. I have submitted my prepared testimony for the record.
    And I also would like to submit the resolution on Burma 
adopted by the U.N. Human Rights Council in April 2011, which 
Aung San Suu Kyi made reference to in her message, for the 
record.
    And my testimony is too long. And it is not possible for me 
to summarize it in 5 minutes. So, therefore, I would like to 
raise only one important issue that is bothering me too much.
    For many years, the international community has tried to 
stop human rights violations in Burma. The United States, 
European Union, Australia, and Canada have employed economic 
sanctions on the regime as forms of pressure for positive 
change. Many years have passed. And then they began to doubt 
that imposing sanctions alone is not enough. And, therefore, 
they started to engage with the regime directly.
    I supported the United States' policy of engaging with the 
regime while making the sanctions, but as I have reminded from 
the beginning, engagement should have a time frame, clear 
benchmarks, and it should involve an appropriate measure to 
respond for any kind of development.
    However, as of today the existing sanctions are still not 
fully implemented yet. And the engagement remains open-ended. 
And I don't see any effort by the U.S. Government to exercise 
the pressure in a more effective and well-coordinated way.
    But the regime knows very well how to manipulate the 
current form of engagement. From the beginning the regime took 
the upper hand by withholding the issuance of visas. They were 
not reject applications for visa, flatly. They will make some 
excuses, such as ``their leaders are now very busy and they 
will not be able to host you appropriately. Please try again 
later.''
    And those diplomats who are eager to visit Burma have no 
choice but to wait for an indefinite period or find someone who 
is close to the regime for help. While waiting for their visa, 
they will try to refrain from criticizing the regime publicly. 
This can be called ``visa blackmail.''
    After delaying weeks or months, the regime issues visas for 
the diplomats. Then the regime will try to control their 
schedule. The visas will only allow for a 2- or 3-day stay in 
the country. And the regime will make them to spend most of 
their time at the capital, Naypyidaw, for meetings with the 
regime officials. The diplomats will not have much time left to 
see the opposition leaders. This can be called ``schedule 
control.''
    The next steps of the regime are making hollow promises and 
selling a story of ``the reformers versus hardliners.'' In most 
of the meetings with the regional leaders, the diplomats will 
not have much chance to raise their concerns.
    At the end of the meeting, the regime will make some 
promises, such as, ``Oh, we are planning to release some 
prisoners,'' or, ``We are considering to allow ACRC to visit 
prisons,'' et cetera.
    And then diplomats will meet some officials, who will 
actually listen to them. The diplomats will be amazed by good 
command of the English language these official process. And 
then they will be amazed more as the regime officials hardly 
argue or deny the complaints they made about the human rights 
situation. And they will be told by the officials, ``We know 
there is something wrong in our country. We want to fix it. And 
we want to make changes, too, but there are hardliners within 
and above our ranks.'' Then they will tell the diplomats to 
give them time.
    It might sound like this: ``Oh. You need to understand us 
and give us some time. Don't put so much pressure on us. If you 
continue to do so, we cannot convince the hardliners to make 
the change. And don't forget. Aung San Suu Kyi is also very 
stubborn.''
    So many diplomats have bought such a story right away. They 
heard from the regime leaders who made some promise. And they 
found some reform-minded persons within the murderous regime. 
They were very much encouraged.
    That is why when they came back from Burma and reported to 
the respective government and organization, their message is, 
``Oh, we need to give them some time to implement what they 
have promised and for the reformer to be able to convince the 
hardliners to do the positive things.'' And they will also 
claim that this is not the right time to impose more pressure.
    So these four steps, visa blackmail, schedule control, 
making hollow promises, and selling a story of reformers versus 
hardliners, have worked very well for the regime over the 
years. And they have been successful in diluting and confusing 
the international diplomats by responding to their engagement 
with such a tactic.
    Unfortunately, and unintentionally, the international 
community has made the regime stronger and the democratic 
opposition weaker by legitimizing the regime, patiently waiting 
for hollow promises, and doing nothing while waiting. And now 
expectations are high again among diplomats that some elements 
in the so-called new government are reform-minded and that they 
deserve to be given more time and that putting more pressure on 
the regime now is not a good idea. For these diplomats, there 
will never be a right time to impose more pressure on the 
regime.
    Mr. Chairman, please help us to end the ``open-ended 
engagement policy and this is not a right time attitude'' of 
the U.S. Government. The world has given the regime plenty of 
time, and so many opportunities to survive to this day. Now is 
the time to support and strengthen the democracy movement by 
weakening the regime stronger and harsher.
    Thank you very much.
    [The prepared statement of Mr. Din follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Manzullo. Thank you.
    Our next witness is coming to us through a prerecorded 
videotape. Aung San Suu Kyi was born on June 19, 1945, in 
Rangoon. Her father, General Aung San, was the national leader 
of Burma until his assassination on July 17, 1947. She was only 
2 years old at the time of her father's assassination. His 
death would be one of the main contributors to her fight for 
peace and independence for Burma.
    An extremely popular figure, the military junta targeted 
her, eventually placing her under house arrest on July 20, 
1989. She spent over 15 of the last 21 years under house 
arrest, forbidden to meet her family in England.
    One of the world's most renowned leaders, Aung San Suu Kyi 
is a symbol of hope, defiance, and moral strength for the 55 
million people of Burma who call her ``Mother,'' indicative of 
an important and endearing note that she plays in her country.
    She has won numerous international awards. In 1991, she was 
awarded the Nobel Peace Prize for being one of the 
extraordinary examples of civil courage in Asia in recent 
decades. In 2008, the Senate honored her with a Congressional 
Gold Medal award, the highest civilian award in the continental 
United States. Her other awards include the Sakharov Prize from 
the European Parliament, the U.S. Presidential Medal of 
Freedom, and the Jawaharlal Nehru Award from India.
    Now we will play the prerecorded video from Aung San Suu 
Kyi.
    Ms. Aung San Suu Kyi [via video]. Any statement made before 
a committee of the United States Congress must start with a few 
words, however brief, of appreciation for all that you and your 
colleagues have done for the cause of democracy in Burma over 
the last two decades. We are very appreciative, and we believe 
that you will continue to do whatever you can to help us in the 
future as well.
    I understand that the purpose of this committee is to find 
out what has really been happening in Burma since the elections 
of November 2010. To, as I understand it, pierce the veil of 
secrecy and to find out the truth of the situation in Burma.
    I am sure you will be receiving a lot of information from 
very many different sources that will enable you to assess the 
situation correctly. What I would like to urge is that you look 
at what is happening in Burma in the light of the United 
Nations Human Rights Council Resolution, the recent one, which 
came out in March. This resolution covers all the needs of 
Burma today, all the political needs, let me say, of Burma 
today. The requests, the urgings, the demands of this 
resolution are very much in line with what we in Burma think is 
needed to start Burma along the genuine process of 
democratization.
    So, if you were to consider this resolution very, very 
closely and then if you were to look at the present situation 
in Burma, you would have a very good idea of how far we are 
along the path to democracy, if we have started on that path at 
all.
    The resolution includes such very important issues as 
political prisoners, freedom of association and information, 
independence of the judiciary, and the right of Professor 
Quintana, the United Nations Human Rights Rapporteur, to visit 
Burma whenever he thinks it is necessary. It also includes the 
need for an inclusive political process in Burma, that we may 
have the kind of situation where there can be a negotiated 
settlement leading to national reconciliation. All these that 
the United Nations Human Rights Council Resolution has called 
for are essential if Burma is to enjoy constitutional 
liberalism and democratic institutions.
    It is going to be a long road. It has already been a long 
road and a difficult one, and no doubt the road ahead will have 
its difficulties as well. But, we are confident that with the 
help and support of those who share our values, those like you 
who are true friends because true friends are those who share 
your values and understand why you hold onto these values in 
spite of all the difficulties that you have to face. With the 
help and support of true friends, I am sure we will be able to 
tread the path of democracy, not easily and perhaps not as 
quickly as we would like, but surely and steadily.
    This is why I would like to request you to do whatever you 
can to ensure that the requests and demands of the United 
Nations Human Rights Council Resolution are met as broadly, as 
sincerely, and as quickly as possible by the present Government 
of Burma.
    The resolution, among other things, calls for the 
independence of the judiciary. I mentioned this earlier. This 
is one of the most important needs in our country today because 
without an independent judiciary we cannot have the rule of 
law; without the rule of law none of our people can be secure 
and there can be no true progress toward democracy.
    Then, the case of political prisoners. Why are they still 
in prison if this government is really intent on making good 
progress toward democracy? If it is sincere in its claims that 
it wishes to bring democracy to Burma, there is no need for any 
prisoners of conscience to exist in this country.
    Surely, democracy means that we all have the right to our 
own beliefs, that we all have the right to try to live in 
accordance with our conscience. Because of that, the case of 
prisoners of conscience is crucial in deciding whether or not 
the present government is sincere about its democratic 
aspirations.
    Professor Quintana has spoken of the need for a commission 
of inquiry into human rights violations in Burma. I support his 
call for such a commission, making it quite clear that a 
commission of inquiry is not a tribunal. It is simply a 
commission of inquiry to find out what human rights violations 
have taken place and what we can do to ensure that such 
violations do not take place in the future.
    I would appreciate everything that is done to help 
Professor Quintana in his work because unless we respect the 
work of the Human Rights Rapporteur, I do not think we will be 
able to make much progress toward the implementation of the 
resolution of the United Nations Human Rights Council.
    I have never made a statement before a committee of the 
United States Congress, so I am not quite sure how to go about 
it. I would simply like to use this occasion to request that 
you do whatever you can to help us implement the United Nations 
Human Rights Council Resolution because that will open up the 
real road to democracy for all of us.
    I would also like to take the opportunity to repeat once 
again how much we appreciate all that you have done and that 
what you have done for us has meant a great deal. I know that 
you will continue to study the situation and to review what has 
been done in the past and to inquire into what should be done 
in the future.
    Sometimes we all have to guess at what is necessary because 
Burma is not an open society. But, I think because we truly 
believe in democratic values and we are all sincere in our 
respect for human rights and constitutional liberalism, our 
guesses will not be far wrong.
    So, I would like to ask you to continue with your work with 
confidence in what you are doing and with confidence in the 
fact that your work is much appreciated. Thank you.
    [The transcript of the video message follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Manzullo. Well, that was extraordinary.
    Dr. Beyrer, this is a tough act to follow, isn't it? We 
appreciate you coming here.
    Doctor Beyrer serves as professor of Epidemiology, 
International Health, and Health Behavior and Society at the 
Johns Hopkins Bloomberg School of Public Health in Baltimore, 
Maryland.
    He directs the Fogarty AIDS International Training and 
Research Program, which provides research training in HIV/AIDS 
for providers from Africa, Asia, and the CIS. He is the founder 
and director of the Center for Public Health and Human Rights 
at Hopkins, which is engaged in research, teaching, and policy 
work on public health and human rights issues.
    He has been engaged in public health research in Burma 
since 1993. He completed his M.D. at State University of New 
York, Downstate Medical Center in Brooklyn, New York, and did 
his public health and infectious disease training at Johns 
Hopkins. In 2008, he was elected to the Governing Council of 
the International AIDS Society as a representative for North 
America.
    He currently has research and/or training activities 
underway in Thailand, Burma, China, India, Vietnam, Russia, 
Kazakhstan, Uganda, Ethiopia, Malawi, and South Africa. In 
2010, he was appointed to the Scientific Advisory Board of the 
U.S. PEPFAR program.
    We look forward to your testimony, Dr. Beyrer.

STATEMENT OF CHRIS BEYRER, M.D., DIRECTOR, JOHNS HOPKINS CENTER 
               FOR PUBLIC HEALTH AND HUMAN RIGHTS

    Dr. Beyrer. Well, thank you very much. Chairman Manzullo, 
Ranking Member Faleomavaega, members, first of all, I want to 
thank you for the extraordinary opportunity to appear with my 
colleague and friend Aung Din and with Aung San Suu Kyi.
    She is, of course, not only beloved by the people of Burma 
but I think has really emerged as a leading voice for 
nonviolence, democracy, and human rights worldwide. And we all 
look forward to the day when she can address this body in 
person.
    I currently serve as a professor of epidemiology at Johns 
Hopkins. I have been involved in Burma since 1993. And this 
year we published a report with Physicians for Human Rights on 
the health and human rights situation in Chin State in western 
Burma, ``Life Under the Junta: Evidence of Crimes Against 
Humanity in Chin State.''
    What I thought I would talk to you about today is the 
evidence we have from some of the ethnic areas and from some of 
the health and human rights domains that really suggest where 
we are in the post-election Burma and, unfortunately, how far 
this country has to go.
    From the perspective of basic freedom and the rights of the 
Burmese people, particularly of the ethnic nationalities and 
their hopes for real national reconciliation, it is clear that 
very little, too little, has changed since the elections.
    And many would argue that that goes back to the nature of 
the election itself. As President Obama said in New Delhi, 
``The November 7th elections in Burma were neither free nor 
fair, failed to meet any of the internationally accepted 
standards associated with legitimate elections, based on a 
fundamentally flawed process, and demonstrated the regime's 
continued preference for repression and restriction over 
inclusion and transparency.'' And I think that he really got 
that right.
    U.N. Special Rapporteur that Aung San Suu Kyi referred to, 
Tom s Quintana, last month listed several areas in particular 
in which this new government has failed to make any progress. 
These included land confiscation, forced labor, internal 
displacement of civilians, extrajudicial exit killings, and 
sexual violence against women. And I want to highlight some of 
the recent information about several of these domains.
    First of all, as many know, after 17 years of cease-fire, 
fighting has broken out in Burma's Kachin State. That fighting 
started on June 9th. Some 10,000 civilians are reported to have 
fled. And, again, Burmese military forces are reported to be 
using rape as a weapon of war.
    The Kachin Women's Association in Thailand has reported at 
least 18 Kachin women and girls have been raped by soldiers 
since June 9th. Four were killed after being raped.
    Our Chin-based survey, as another example, found that 91 
percent of households had had at least one family member forced 
to labor for the military in the past 12 months. Religious 
persecution was reported by 14 percent of households, a 
disappearance by 4.8 percent, and rape by 2.8 percent. And we 
were able to look at who actually committed these abuses. And 
government soldiers committed 98.3 percent of those abuses.
    The highest levels occurred in southern Chin State in areas 
under the control of a man named Colonel Zaw Min Oo, who was 
then head of the Tactical Operations Command in Matupi 
Township.
    Now, of course, all of those occurred before the election. 
So you ask yourself how relevant are they to the Burma that we 
now are looking at? Well, Colonel Zaw Min Oo was one of the 
junta's appointments to the new Parliament. And he is not the 
Border Area and Security Affairs Minister of Chin State. So 
that has now changed. That is impunity for human rights abuses.
    And in Shan State, again after the elections, we have had 
reports of a 16-year-old girl who was raped by soldiers after 
having been forced to watch while the military shot and killed 
her parents. Fighting there has recently broken out and has 
affected 100,000 civilians with at least 3,000 people being 
forced to flea into jungle areas or into Thailand.
    These are not isolated incidents. Secretary of State 
Clinton noted in her remarks in April at the Vital Voices event 
here in Washington which honored Aung San Suu Kyi, Secretary 
said, ``We hold up the ethnic women of Burma who are fighting 
against the systematic use of rape by the Burmese military.''
    In the area of humanitarian assistance and public health, 
the need for expanded health and humanitarian resources and 
assistance is agreed upon by all parties. But access, 
transparency, and accountability of assistance continue to be 
challenges.
    As an example, many were heartened by the return of the 
Global Fund to fights AIDS, malaria, and TB, which recently 
returned to Burma as a donor. Now, malaria is the leading cause 
of death in eastern Burma's Karen State, but much of that state 
is explicitly excluded from the Global Fund agreement. And the 
reason for that is--and I quote directly--``to avoid further 
accusations of lack-of-access problems.''
    The latest government budget, approved without the new 
Parliament, allocates less than two dollars per person per year 
for health. And that continues, really, the gross underfunding 
that has long been the biggest problem in health allocations in 
this country.
    You have already heard from Aung Din about political 
prisoners. That was in his written testimony. As a physician, I 
feel a particular connection to one political prisoner I would 
like to name in person. That is U Indaka, the abbot of Maggin 
Monastery.
    The Maggin Monastery was a hospice and treatment center for 
AIDS patients in Rangoon. And during the Saffron Revolution of 
2008, Maggin Monastery, a number of the monks from there, from 
the hospice, were involved in the Saffron Revolution.
    The monastery was raided. AIDS patients were driven onto 
the streets. And U Indaka, also NLD member, was sentenced to 20 
years in prison. He is still in prison. And he is precisely the 
kind of provider that if the U.S. were going to increase its 
assistance to, that we would really want to be working with 
were he free.
    So what can the U.S. do to support democracy, freedom, and 
development in Burma in this post-election scenario? I think 
there are three things certainly that we could suggest. One is 
to echo Aung San Suu Kyi's call for the commission of inquiry. 
The U.N. Special Rapporteur Quintana has called for that. So 
has the U.S. Ambassador to the U.N. Human Rights Commission, 
Eileen Donahoe. And so has Secretary of State Clinton.
    But the U.S. really needs to exercise vigorous leadership 
on this effort. And State Department I think really needs to 
carry the water on this. And this effort could be led by 
recently appointed Special Representative and Policy 
Coordinator for Burma, Derek Mitchell. And we really look 
forward to his confirmation and leadership in this effort.
    I would just add that the treatment of political prisoners 
in detention in Burma should be part of this commission of 
inquiry for that, too, may represent crimes against humanity.
    Secondly, full implementation of targeted sanctions 
legislation already in place for the junta and some of their 
cronies could continue to put pressure on this new regime. As 
everybody here knows, many of the people who previously were in 
the military leadership are now in the civilian leadership.
    And, finally, support for democracy. Aung San Suu Kyi and 
the National League for Democracy, despite being outlawed, 
remain critical players in any future democratic transition.
    The U.S. should increase engagement in active and sustained 
dialogue with the NLD and should continue to consult with her 
and her party on all U.S.-funded activities, including 
humanitarian assistance programs. Programs which exclude the 
NLD, however well-meaning, undermine this transition and won't 
I would argue in the long run help alleviate the root cause of 
the suffering of Burma's people, which is military misrule, 
essentially under a new guise.
    The U.S. needs to be on the right side of history in Burma. 
And that side will always be the will of the people. And the 
will of the people is really best expressed by Aung San Suu Kyi 
herself.
    Thank you for your attention.
    [The prepared statement Dr. Beyrer follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                              ----------                              


    Mr. Manzullo. Well, thank you very much for your testimony.
    Mr. Faleomavaega, we decided not to invite any government 
witnesses. We have worked very closely with Assistant Secretary 
Campbell and the State Department. We decided because of the 
very unique testimony of Aung San Suu Kyi, we would just have a 
panel from the private sector.
    Dr. Beyrer, on your most recent visit to Burma, did you 
face any resistance to conducting your studies in HIV/AIDS 
training? You were doing it at the National League for 
Democracy. Give us an account of your personal experience 
during this trip, if you want.
    Dr. Beyrer. Surely, sir. Well, I made a number of trips to 
Burma in the 1990s and then during that period before Aung San 
Suu Kyi's most recent house arrest. And at that time, she was 
very concerned that a large number of the NLD youth league had 
refused to swear allegiance to military rule. At the time the 
military was insisting that all students, university students, 
medical, nursing, everybody, sign the allegiance to perpetual 
military rule or be expelled. And so a number of them were 
expelled.
    And as a person who greatly values education, she was very 
concerned about this and initiated the idea of something like 
an open university, where independent experts would come into 
the country and provide training, education, and the 
opportunity to really keep intellectual life alive.
    So I agreed to do this and did HIV/AIDS training for the 
NLD youth. Suu Kyi herself at the time was not allowed to speak 
publicly, but she very skillfully suggested that I would need a 
translator and that she could translate, even though she 
couldn't speak. So I had the extraordinary opportunity. And let 
me tell you that when she is acting as your translator, you 
kind of speak well. You step up.
    And it went very well, I think. We did it at the old NLD 
offices. They were completely packed. It was standing room 
only. There was a great deal of engagement. We learned a 
tremendous amount. People were very forthcoming about their 
situations, what was going on in the townships, urban areas 
around Rangoon.
    When I tried to leave the country after that, I was, my 
hotel was basically taken over by military intelligence. All of 
the other guests were asked to leave. And, fortunately, the 
U.S. Embassy helped me get safely out of the country.
    At my departure, all of the materials were taken. And I 
said at the time to the security forces, ``Please distribute 
these to the young people in your offices because they need 
this information on HIV as well. We have nothing to hide.'' We 
were doing an HIV training open to the public.
    But on my most recent attempt to return to Burma and meet 
with Aung San Suu Kyi privately, I was given a visa here in 
Washington but then detained on arrival in Rangoon, 
interrogated, and then not allowed to enter the country. So I 
actually saw Burma from the air and I got very close, but I was 
not able to enter. And I look forward to the day that I can.
    Mr. Manzullo. Thank you.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Din, I was going through your testimony. Very 
impressive. Of course, I would be the last person to ever 
question your expertise and understanding, appreciation of what 
has happened.
    I don't know, Mr. Chairman. Should we say Burma or Myanmar? 
I think the connotation of Burma is a colonial perspective 
because that's what the British called this country, Burma, 
during its colonial rule of Burma, which is now known as 
Myanmar.
    I would like to note that you have made a very good point 
here about the fact that Burma is one of the countries with the 
oldest and ongoing civil war since 1948, and composed of eight 
major ethnic nationalities with several dozens of ethnic 
nationalities. In other words, it is not a homogeneous society. 
You have eight separate ethnic groupings that are constantly 
fighting, or were constantly fighting, among each other where 
you could really never really unite as a country. And please 
correct me if I am wrong in reading your statement.
    Was, in fact, Burma a united country before, during, or 
after the British colonial rule?
    Mr. Din. Today's Burma is actually made by the British 
colonial government that ruled the country. Previously all 
nationalities, they all have their own kingdom. They all have 
their own civilization. They have their own territory. They 
were actually----
    Mr. Faleomavaega. There were eight independent city states 
or----
    Mr. Din. Yes. That is correct, not city states but you also 
have the----
    Mr. Faleomavaega. Independent.
    Mr. Din. Well, the same as the Soviet Union. After the 
Second World War, the Soviet Union, many Eastern European 
countries became a part of Soviet Union, same thing like that.
    So they all have their own territory. They all have their 
own civilization. They all have a right to stand by themselves 
without joining into the union of Burma, but they believe in 
our national leader Aung Sun who promised them that the country 
of Burma will be built on the federalism and all of the 
nationalities will be standing together for equal opportunity 
and the rights. Believing General Aung Sun, they tried to take 
the independence together from the British.
    Mr. Faleomavaega. And I just want to understand a little 
more. General Aung Sun, was he a member of the largest ethnic 
group among----
    Mr. Din. Yes. He is from the Burman majority. He was----
    Mr. Faleomavaega. He was assassinated by another?
    Mr. Din. Yes. That's correct.
    Mr. Faleomavaega. So, I mean, this is how complex. It is 
not as simple as we make it to be. I mean, to suggest that we 
could make a democracy when the fact that it historically and 
all of this, it is a very difficult situation to try to put 
eight separate ethnic nationalities into a country, one 
country. Am I wrong in seeing this?
    Mr. Din. You are right. At the same time the situation is 
that all of the other nationalities, they don't want to secede. 
They would rather live within the Federal union. They are not 
demanding for secession from the country. They agreed to join 
within the country, federalism, if they all would have the 
equal opportunities and rights.
    Only the military junta will not allow such a situation. 
They consider these minorities as secondary; they are 
subordinates and not citizens.
    Mr. Faleomavaega. Just to demonstrate how spirited these 8 
separate ethnic nationalities, they had 37 political parties 
that became part of the elections that took place last year in 
November.
    Mr. Din. Yes, that's correct.
    Mr. Faleomavaega. And part of the constitutional 
requirement is that 25 percent had to be from the military?
    Mr. Din. Yes.
    Mr. Faleomavaega. How is that being considered by the 
people of--I say Myanmar because it has a non-colonial 
classification to it.
    Mr. Din. One thing, they are usually--our leader, Aung San 
Suu Kyi, said that Burma-Myanmar is very not important. If 
there is a majority of people who want change to Myanmar, we 
can call it Myanmar, but it will be decided by the people of 
the country. The military leader has no power or no authority 
to make the change. They can't name the country with their own 
desire.
    Mr. Faleomavaega. I know my time is up. I just want to say 
that when I was in high school, I never forgot that one of the 
great leaders that came out is the Secretary General of the 
United Nations, U Thant. But then ever since Mr. U Thant, 
things seem to have dissipated in terms of trying to get Burma 
or Myanmar to become as a united people.
    I am sorry, Mr. Chairman. My time is up. Oh, I'm sorry. Dr. 
Beyrer?
    Dr. Beyrer. Yes. Just one quick comment is I think it's 
true that it is an enormous challenge, the diversity of Burma, 
but it is also true that in the 1990 elections, which are the 
only elections we have that were free and fair, the NLD, Aung 
San Suu Kyi's party, won an overwhelming majority in the 
Parliament.
    Mr. Faleomavaega. But my understanding, Dr. Beyrer, that 
election was really for constituencies. There was not a 
national election, my understanding of that election. It was 
not a national election to elect a President or Prime Minister. 
It was more a regional election.
    Dr. Beyrer. Well, that is true, but it is also true that in 
terms of the seats in the Parliament, you know the NLD also 
affiliated, for example, in Shan State with the Shan 
nationality's leap for democracy. And they won overwhelmingly.
    So I think the evidence there is that when the Burmese 
people had the opportunity to vote for what they thought was 
human rights and a democratic way forward, actually, the ethnic 
tensions were----
    Mr. Faleomavaega. But then one of the problems at the NLD 
ended up splitting within its ranks. You have got the uncles 
and the nephews. And that was one of the challenges to Suu Kyi 
as well, trying to get her NLD part united, because when they 
boycotted the election, it left them out of the whole political 
process and that those who split from the NLD party went ahead 
and participated in the election process.
    I am sorry, Mr. Chairman. My time is up. I will wait for 
the second round. Thank you, Dr. Beyrer.
    Mr. Manzullo. Thank you.
    I would like to recognize Joe Crowley from New York. 
Congressman Crowley and I were the co-sponsors of the 
resolution to give the Congressional Gold Medal to Aung San Suu 
Kyi. Mr. Crowley?
    Mr. Crowley. Thank you, Mr. Chairman. And we hope to some 
day have an opportunity to present the medal to Suu Kyi, who I 
believe is one of the world's great heroes, Aung San Suu Kyi.
    And I am sorry that I was not here for the presentation of 
her video. I hope to see that in the near future. I did have an 
opportunity to speak to Aung San Suu Kyi soon after her release 
from house arrest. And I know that Secretary Clinton has also 
had conversations with her as have other world luminaries and 
dignitaries as well. She certainly is a remarkable woman.
    I thought it was interesting just in terms of my good 
friend Eni Faleomavaega. He and I have traveled the world 
together and seen a great deal of it, as have Don Manzullo and 
I together.
    And you brought up an interesting subject about the naming 
of the country. And I think being Irish American, we like to be 
subtly defiant and in many respects kind of catching ourselves 
every so often. Saying Myanmar-Burma is just kind of a way 
maybe for us to demonstrate our defiance of the junta and the 
military rule in that country.
    But I am so pleased that both of you continue to bring 
light and attention on a subject matter that I don't believe we 
can see to garner enough sustained attention on. It is an issue 
that from time to time heats up and then quiets down again 
before it hits a boiling point again that heats up again, and 
it kind of dies down.
    It is for that reason, you know, that I feel so strongly in 
what we as a Congress have done to move this regime to act to 
bring more democracy, more freedom to the people of Burma by 
using sanctions.
    What I would suggest is that the Congress has acted, and I 
believe the administration has tools within its shed or arrows 
in its quiver to really act on the Burma JADE Act and to ask 
and to call upon the administration to use the tools and the 
tough sanctions against this oppressive regime. What is the 
sense of having these tools if the regime continues to rape and 
to murder and to dehumanize the people that they supposedly are 
leading? It is something that I think is intolerable and needs 
to change.
    And just lastly, again, I want to thank both of your 
guests. I know it is not often that a nonmember of this 
committee--although I served on this committee for 12 years and 
I miss it very much, it is my first year not serving on the 
Foreign Affairs Committee but that I do appreciate you giving 
me the opportunity to speak and to thank our guests for being 
here today and for presenting their testimony. I particularly 
want to thank Aung San Suu Kyi again for her testimony.
    This is too important an issue to just let fade away. And I 
think the administration has the tools it needs to really bring 
a bit of a hammer to the table when dealing with this junta.
    So thank you, Mr. Chairman. I will yield back the balance 
of my time.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Just a couple of 
follow-up questions in terms of our dialogue and discussion 
this afternoon.
    I know you mentioned, Mr. Din, you made a very good 
question. What should the United States do? And for how many 
years have we been dealing with the problem of--I think the 
problem, as we have been discussing concerning sanctions, is 
that the country really doesn't need to be bothered because as 
long as they are able to train with their neighboring 
countries, the sanctions don't give that much substance to it. 
And that seems to be the problem that we have over the years 
dealing with Myanmar.
    And you indicated here that you think that if Burma becomes 
a democracy, or Myanmar becomes a democracy, then all of these 
problems will clear themselves. But the reality of it is that 
as long as these countries are able to trade with Burma, 
especially in the Southeast Asia, as well as with China 
especially, how do you stop this from happening? You can't tell 
China not to trade with Burma, no more than China telling us 
that we can trade with any other country of the world if we 
feel like it.
    Mr. Din. Let me argue with you.
    Mr. Faleomavaega. Please.
    Mr. Din. The first is that economic sanctions or engagement 
will not make the Burma free from the dictatorship. Burma, who 
will have made their country free from the dictatorship?
    Now, they are working hard. They have been working for 
many, many years to be free from the dictatorship under the 
leadership of our leader Aung San Suu Kyi. What are we calling 
for? We are not trying to topple the military junta from the 
power? We are calling for the political dialogue. We would like 
to have the negotiated political settlement. But such can be 
realized only when the military junta is weaker and the power 
of democracy forces are stronger.
    But as we see it, the regime seems to be stronger and our 
forces seem to be weaker. So as long as there is no balance of 
power between the democratic opposition and the military junta, 
we will never see such a political dialogue in our lifetime. 
That's why our request is to put so much pressure on the regime 
stronger and stronger. And then when the regime became weaker 
and weaker, then they will realize there is the only way that 
political dialogue with the democratic opposition and the 
minorities to solve the problem peacefully.
    You know, I understand that sanctions and the trading 
relationship with the neighboring countries, but we have the 
very effective tools in the United States sanctions system. The 
Congress adopted the resolution called the Burma JADE Act, 
which included a very powerful----
    Mr. Faleomavaega. I just wanted to mention that you 
mentioned that if a regime becomes weaker----
    Mr. Din. Yes.
    Mr. Faleomavaega [continuing]. In the process, don't you 
think it will go back again to the ethnic rivalry that existed 
prior to the military taking over the country? That was one of 
the biggest problems that you had over the years.
    Mr. Din. Yes.
    Mr. Faleomavaega. It's a constant civil war, actually, 
among the eight biggest nationalities that make up the country. 
You are suggesting that if the regime becomes weaker, but are 
you going to go back again to the rivalries among the different 
major ethnic districts? They're going to fight among themselves 
again without the military.
    Mr. Din. It is the same excuse made by the military junta 
for many, many years. They claim that they are the only one 
institution in Burma which can prevent the country from 
disintegration, but it is not true. But that is all the 
military forces.
    Yes, they are fighting for their rights. But they never 
ever tried to--they never have willingness to fight against the 
opponent in the civil war. They would like to solve the problem 
peacefully. So that's why we are talking about. There was a 
separation, they are not standard, Daw Aung San Suu Kyi has the 
capacity that her father belongs. So they are not separatists. 
They want to unite the country with the equal opportunity for 
all ethnic nationalities.
    We have seen the situation of 400,000 soldiers against 
millions what could become millions of----
    Mr. Faleomavaega. My time is running out, sir. I just want 
another question. Myanmar is a full-fledged member of the ASEAN 
association. And I think right now it is up for becoming the 
chairmanship for the east Asian countries membership. There are 
ten of them. What do you think should be Myanmar's position or 
membership? Should it continue to be a full-fledged member of 
the ASEAN Association?
    Mr. Din. I made the suggestion that I am talking about I 
supported the policy of engaging in the region plus while 
making sanctions, but we want the basic element to make the 
sanctions from this government coordinated. At the same time we 
need the United States Government to set a clear time frame for 
such engagement policy.
    Now the regime is calling for the ASEAN chairmanship in the 
2014, which is quite a good opportunity for the United States 
Government to set up the clear time frame. Within such a time 
frame with a clear benchmark, releasing all political 
prisoners, allowing all bodies concerned to participate in the 
political process freely, and stop the military offensive of 
ethnic minorities. We will solve the problem together with 
these such benchmarks within a limited time frame.
    I think the United States can play a very important role to 
make positive change in my country.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Thank you, Mr. 
Din.
    Mr. Manzullo. We thank you for the opportunity to have you 
testify. This is the second opportunity I have had to present a 
videotape of a witness. The first one was Governor Bush of 
Florida testifying on an issue where the U.S. Government wanted 
to make the Canadian snowbirds show up at U.S. post every 60 
days. The Governor was quite upset with that regulation. We 
actually resolved the issue during the course of it. Here today 
we had the rare opportunity to be able to have the testimony of 
Aung San Suu Kyi, which no less diminishes the testimony of the 
two live witnesses that came.
    I think the empty chair really symbolizes who this woman 
is. She is there in spirit. She very graciously agreed to 
testify before Congress in the limited capacity, the only 
capacity available to her.
    We know that the spirit of people like this, the woman 
whose father was literally the George Washington of Burma, as 
long as freedom has any hope of piercing the veil of darkness 
in the world, we will always think of Aung San Suu Kyi. She 
represents that shining example.
    It is a real pleasure to have you here, Dr. Beyrer, and 
you, Mr. Aung Din. We look forward to your continuous work in 
your fields. This hearing is now adjourned.
    Mr. Faleomavaega. Mr. Chairman?
    Mr. Manzullo. Oh, I will yield.
    Mr. Faleomavaega. I am sorry. Yes. I just want to come in 
and thank you again for calling this hearing. It is my sincere 
hope that maybe in the near future, that both of us will have a 
chance to visit Myanmar and also again to congratulate and 
commend Ms. Suu Kyi for an excellent presentation before us. It 
is historical. It is probably the first testimony ever given 
before a congressional subcommittee. So I commend you, Mr. 
Chairman, for----
    Mr. Manzullo. But then we didn't swear the witnesses.
    Mr. Faleomavaega. Let's have another hearing, get the 
administration people in here. Find out exactly what the heck 
they are doing so we will get a better idea of what we need to 
do on our part.
    But, again, Mr. Chairman, thank you for calling----
    Mr. Manzullo. Thank you. This hearing is adjourned.
    [Whereupon, at 1:57 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


     <F-dash>\<triangle><careof><Rx> <F-dash><func.-of><Register>\

 Material submitted for the record by Mr. Aung Din, executive director 
                and co-founder, U.S. Campaign for Burma

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   <F-dash>\<F-dash>a<script-l><box><pound><acctof>ava<box><bullet>a 
                     <F-dash><func.-of><Register>\

      Material submitted for the record by the Honorable Eni F.H. 
     Faleomavaega, a Representative in Congress from American Samoa

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
